                                                      OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 1 of 4) Version 4.0
               Reporting Entity: Department of Transportation ‐ OIG
             Month Ending Date: 08/31/2009

                                                       Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau                 Recovery Act TAFS           Obligation Type   US Indicator         State Code       Total Obligations   Total Gross 
                                                                                                           (ONLY for grants                         Outlays
                                                                                                           and cooperative 
No.                                                                                                          agreements)
    Department of Transportation ‐ (69‐0131 2009 \ 2013)                   Other            Y ‐ US                                $231,193         $205,479 
    OIG                            Transportation ‐ OIG ‐
  1                                Recovery Act
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                           Non-Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau              Non‐Recovery Act TAFS           Total FY 2009    Total FY 2009      Total FY 2010       Total FY 2010 
No.                                                                      Obligations     Gross Outlays       Obligations        Gross Outlays
    Department of Transportation ‐   (69-0130 2009) Transportation -        $1,293,551        $1,169,974                 N/A                N/A
  1 OIG                              OIG
  2
  3
  4
  5
  6
  7
  8
  9
 10




                                                                                                              DOT OIG Monthly Report Num 6 August 2009 09-08-09
                                                                                         OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 4) Version 4.0
        Reporting OIG: Department of Transportation ‐ OIG
    Month Ending Date: 8/31/2009

   # of FTE Working on Recovery                                  Testimonies:
        Newly Hired FTE 
                           0.00                         Provided (monthly):              0
           (cumulative):

FTE Funded by Recovery 
                                   0.00             Provided (cumulative):               3
 Act Funds (cumulative):

      FTE Not Funded by 
     Recovery Act Funds            0.00
           (cumulative):

                                                                                                                                                       Audits / Inspections / Evaluations / 
               Complaints                         Whistleblower Reprisal Allegations                              Investigations                                                                         Training / Outreach
                                                                                                                                                                     Reviews
             Monthly Data                                      Monthly Data                                       Monthly Data                                    Monthly Data                              Monthly Data

                                                                                                                                                                                                         Training Sessions 
                 Received:           34                             Received:            0                               Opened:            1             Initiated (this month):     0                                           14
                                                                                                                                                                                                                Provided:

                                                                                                                                                       In Process (as of the end 
                                                                    Accepted:            0                                 Active:          7                                         1               Individuals Trained:       989
                                                                                                                                                                 of the month):
                                                                                                                                                               Completed Final 
                                                                                                                                                                                                         Hours of Training 
                                                                                                             Pending Decision:              2                   Published Work        1                                          989
                                                                                                                                                                                                                Provided:
                                                                                                                                                                       Products:
                                                                                                                                                                Priority Interim 
                                                                                                                                                                                                        Outreach Sessions 
                                                                                                       Closed without Action:               0                   Published Work        0                                           16
                                                                                                                                                                                                              Conducted:
                                                                                                                                                                       Products:
                                                                                                                 Accepted for                                Unpublished Work 
                                                                                                                                            0                                         0
                                                                                                                 Prosecution:                                        Products*:
                                                                                                          Prosecution Denied:               0

                                                                                                      Referred for Alternative 
                                                                                                                                            0
                                                                                                                   Resolution:
 Cumulative Data Since 2/17/2009                   Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009                  Cumulative Data Since 2/17/2009           Cumulative Data Since 2/17/2009
                                                                                                                                                             Completed Final 
                                                                                                                                                                                                         Training Sessions 
                 Received:          131                             Received:            0             Closed without Action:               0                 Published Work       4                                             180
                                                                                                                                                                                                                Provided:
                                                                                                                                                                    Products:
                                                                                                                                                              Priority Interim 
                                                                                                                    Accepted for 
                                                                    Accepted:            0                                                  6                 Published Work       0                  Individuals Trained:      7,049
                                                                                                                    Prosecution:
                                                                                                                                                                    Products:
                                                                                                                                                           Unpublished Work                              Hours of Training 
                                                                                                          Prosecution Denied:               0                                      0                                            7,049
                                                                                                                                                                   Products*:                                   Provided:

                                                                                                      Referred for Alternative                                                                          Outreach Sessions 
                                                                                                                                            1                Cumulative Total:        4                                          209
                                                                                                                   Resolution:                                                                                Conducted:

                                                                                                             Cumulative Total:              7

*These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                      DOT OIG Monthly Report Num 6 August 2009 09-08-09
                                       OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0
      Reporting OIG: Department of Transportation ‐ OIG
  Month Ending Date: 08/31/2009

       No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     On August 6, the DOT OIG issued an ARRA Advisory on the Federal Aviation Administration's Award of ARRA Grant
        1
                     Funds to Airport Imporvement Program Projects.
        2
        3
        4
        5
        6
        7
        8
        9
        10

       No.                                    OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
                     Issue "ARRA Advisories" to the Department and Congress when we identify vulnerabilities that could impede DOT’s ability
        1
                     to provide effective oversight to ARRA-funded projects and meet new requirements
        2            Continue to monitor for fraudulent schemes in the contracting process.
                     Continue fraud prevention and awareness briefings and outreach efforts. As of August 31, we have six fraud prevention
        3
                     and awareness training sessions scheduled for September.
        4
        5
        6
        7
        8
        9
        10




                                                                                        DOT OIG Monthly Report Num 6 August 2009 09-08-09
                                                               OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 4) Version 4.0
   Reporting OIG: Department of Transportation ‐ OIG
    Month Ending 
                  08/31/2009
            Date:

                                                                                 TRAINING ACTIVITIES
                                                                                         Training                  Length of                             Presentation    Average
                                                   Target                                                Date of                Number of     Cost of
       No.               Type of Training                        Title of Training     Location (City,             Training                               with Other    Evaluation
                                                  Audience                                               Training              Participants   Training
                                                                                           State)                   (hours)*                                 OIGs         Rating
        1         Anti-trust                   Federal       Anti-Trust Training     Renton, WA           8/4/2009           1           60
                                                             Fraud
        2         Fraud Prevention/Awareness   Mixed         Prevention/Awareness Montgomery, AL          8/5/2009          1          220
                                                             Training
                                                             Fraud
        3         Fraud Prevention/Awareness   Mixed         Prevention/Awareness Osage Beach, MO        8/10/2009          1           40
                                                             Training
                                                             Fraud
        4         Fraud Prevention/Awareness   Federal       Prevention/Awareness Washington, DC         8/10/2009          1           40
                                                             Training
        5         Anti-trust                   Mixed         Anti-Trust Training     Salem, OR           8/11/2009          1           40
        6         Fraud Prevention/Awareness   Federal       FAA Acquisition Training Washington, DC     8/12/2009          1           50
                                                             Fraud
        7         Fraud Prevention/Awareness   Mixed         Prevention/Awareness   Thompsonville, MI    8/13/2009          1           80
                                                             Training
                                                             Kentucky Public Transit
        8         Fraud Prevention/Awareness   Mixed                                 Lexington, KY       8/13/2009          1           50
                                                             Association Conference
                                                             Fraud
        9         Fraud Prevention/Awareness   Mixed         Prevention/Awareness   Harrisburg, PA       8/18/2009          1          119
                                                             Training
                                                             Fraud
       10         Fraud Prevention/Awareness   Mixed         Prevention/Awareness   Ames, IA             8/18/2009          1           50
                                                             Training
                                                             Labor OIG Annual
       11         Fraud Prevention/Awareness   Federal                              Lake Geneva, WI      8/19/2009          1           30
                                                             Regional In-Service
                                                             Fraud
       12         Fraud Prevention/Awareness   Mixed         Prevention/Awareness   Indianapolis, IN     8/21/2009          1           40
                                                             Training
                                                             FAA Procurement
       13         Fraud Prevention/Awareness   Federal                              Washington, DC       8/25/2009          1           90
                                                             Training
                                                             Fraud
       14         Fraud Prevention/Awareness   Federal       Prevention/Awareness   Annapolis, MD        8/25/2009          1           80
                                                             Training
*Approximate Length of Training Course



                                                                                                                         DOT OIG Monthly Report Num 6 August 2009 09-08-09
                                                         OIG Recovery Act Monthly Report
                                     OUTREACH ACTIVITIES
                                        Number of
                                      Organizations                              Outreach
         Organization to which                            Description of                           Date of
No.                                   Represented at                           Location (City,
          Outreach Provided                                 Outreach                              Outreach
                                        Outreach                                   State)
                                         Session
      Federal Aviation                               General ARRA Related
1                                                  1                          Des Plaines, Iowa     8/4/2009
      Administration, Airports Div                   Projects Discussion
      Fed. Highway Administration,
2                                                  1 Liaison with Stakeholder Salem, Oregon        8/11/2009
      OR
      Dept. of Justice, Office of
3                                                  1 Liaison with Stakeholder Miami, Florida       8/17/2009
      Inspector General
      Fed. Highway Administration,
                                                                              Harrisburg,
4     PA & Pennsylvania                            2 Fraud Prevention                              8/18/2009
                                                                              Pennsylvania
      Department of Transportation
                                                       Follow-up on ARRA
      Rhode Island Department of
5                                                      Fraud Awareness        Rhode Island         8/19/2009
      Transportation
                                                       Training
      U.S. Attorney's Office & FBI,
6                                                  2 Liaison with Stakeholder Portland, Maine      8/19/2009
      Portland, ME
      Pennsylvania Department of                     Specific ARRA Funded
7                                                  1                          Pennsylvania         8/19/2009
      Transportation                                 Project Discussion
      New Hampshire Department of                    Specific ARRA Funded
8                                                  1                          New Hampshire        8/21/2009
      Transportation                                 Project Discussion
      Washington Metropolitan Area
                                                       Proactive Project
9     Transit Authority, Office of                 1                          Washington, DC       8/25/2009
                                                       Discussion
      Inspector General
      Fed. Highway Administration,
                                                                              Jacksonville,
10    FL & FL Dept. of                             2 Fraud Awareness                               8/25/2009
                                                                              Florida
      Transportation
      South Carolina Department of
11                                                 1 Fraud Awareness          South Carolina       8/26/2009
      Transportation
      Connecticut Department of                      Specific ARRA Funded
12                                                 1                          Connecticut          8/27/2009
      Transportation                                 Project Discussion
                                                     Follow-up on ARRA
      Rhode Island Department of
13                                                 1 Fraud Awareness          Rhode Island         8/28/2009
      Transportation
                                                     Training
      Rhode Island Department of
14                                                 1 Liaison with Stakeholder Rhode Island         8/28/2009
      Transportation
      Rhode Island Department of
15                                                 1 Liaison with Stakeholder Rhode Island         8/28/2009
      Transportation
      Rhode Island Department of
16                                                 1 Liaison with Stakeholder Rhode Island         8/31/2009
      Transportation




                                                                                                               DOT OIG Monthly Report Num 6 August 2009 09-08-09
